No. 19-635
IN THE SUPREME COURT OF THE UNITED STATES
DONALD J. TRUMP, President of the United States,
Petitioner,
v.
CYRUS R. VANCE, JR., in his official capacity as District Attorney of the County of
New York; MAZARS USA, LLP,
Respondents.
CERTIFICATE OF SERVICE

I, Jay Alan Sekulow, counsel for Petitioner, hereby certify that on this 21st day
of January, 2020, I caused eleven copies of the foregoing Motion to be filed with the
Clerk of the United States Supreme Court via hand delivery, and to be served on the
following by first-class mail and electronic mail:
Carey R. Dunne
New York County District Attorney’s Office
1 Hogan Place
New York, NY 10013
212-335-9216
dunnec@dany.nyc.gov
Jerry D. Bernstein
Blank Rome LLP
1271 Avenue of the Americas
New York, NY 10020
212-885-5511
jbernstein@blankrome.com

/s/Jay Alan Sekulow
Jay Alan Sekulow
Counsel of Record
CONSTITUTIONAL LITIGATION
AND ADVOCACY GROUP, P.C.
1701 Pennsylvania Ave, NW,
Ste. 200
Washington, DC 20006
(202) 546-8890
jsekulow@claglaw.com
Counsel for President Donald J. Trump

2

